IN THE SUPREME COURT OF THE UNITED STATES

No.

LEVIAN PACHECO PACHECO,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I, Keith James Hilzendeger, a member of the Bar of this Court, certify that on
April 7, 2021,1 caused 40 copies of the petition for a writ of certiorari to be filed with the
Clerk of this Court by delivering them to a third-party commercial carrier for delivery
within 3 business days. I also caused 3 copies of the petition to be served on the Solicitor
General of the United States, Room 5616, Department of Justice, 950 Pennsylvania
Avenue NW, Washington, DC, 20530, by delivering them to a third-party commercial
carrier for delivery within 3 business days. All parties required to be served have been
served.

Respectfully submitted:

April 7,2021.

DITH JAMES HILZENDEGER
Counsel of Record
Assistant Federal Public Defender
850 West Adams Street, Suite 201
Phoenix, Arizona 85007

(602)382-2700 voice
keith_hilzendeger@fd.org
Counsel for Petitioner

